No.

3fa tje Supreme Court of tfje ?Hntteti States
AMMAR IDLIBI,
Petitioner,
v.
STATE OF CONNECTICUT,
Respondent.
On Petition for a Writ of Certiorari to the Appellate
Court and the Supreme Court of the State of
Connecticut

PETITION FOR A WRIT OF CERTIORARI
Ammar Idlibi
Petitioner
33 Maggie Court
Terryville, CT 06786
860-543-5400
aidlibi@y ahoo. com

QUESTIONS PRESENTED

The Petitioner in this case is the natural father of
three children, removed from their natural mother’s care
and kept in ‘temporary’ foster placement (while on a plan
of reunification with their parents) for 48 months between
the date of their removal and the date of the decision
terminating the Petitioner’s parental rights. The foster
household practices a religion different than that of the
children’s. In the termination proceeding, the court relied
on reconsidered findings from a prior (neglect) proceeding
to terminate Petitioner’s parental rights and disregarded
the children’s religious affiliation.
The questions presented are:
1- Whether the State’s prolonged ‘temporary’ foster
placement (in excess of 40 months) of children on a plan of
reunification, violated federal law, impinged upon a claimed
religious freedom and violated the Petitioner’s rights under the
Fourteenth Amendment’s Due Process Clause.
2- Whether the State court’s reconsideration/relitigation of
findings from a prior proceeding:
a) Violated the Fifth and Fourteenth Amendment’s Due
Process Clause, and;
b) Deprived the Petitioner of his fundamental right to a fair
trial resulting in the erroneous deprivation of his parental
rights.

11

PARTIES TO THE PROCEEDING
Petitioner Ammar Idlibi, is the natural father of the
three children who were the subject of a neglect proceeding
and a subsequent parental rights termination proceeding.
Respondent is the State of Connecticut whose agency,
the Department of Children and Families (“DCF”), was
responsible for fostering the children during almost five
years of litigation, whose Appellate Court affirmed the
termination of parental rights of Petitioner and whose
Supreme Court denied Petitioner certification.
To preserve confidentiality, the identities of the
petitioner’s children are in a sealed letter on file with the
clerk.
The three children are represented by three stateappointed counsels^ Brian T. Walsh, Esq., Robert Lewonka,
Esq., and Kata Maluszewski. Esq.

Ill

TABLE OF CONTENTS
QUESTIONS PRESENTED
PARTIES TO THE PROCEEDING

1
11

TABLE OF CONTENTS

m

TABLE OF AUTHORITIES

vi

INTRODUCTION

1

OPINIONS BELOW

2

JURISDICTION

2

RELEVANT CONSTITUTIONAL PROVISIONS

3

STATEMENT

3

A. Legal Framework

.4

B. Factual & Procedural Background

.5

REASONS FOR GRANTING THE PETITION
I.

13

This Court needs to interpret federal law as it pertains to
the biological parents’ constitutional
13
rights

IV

A.

This Court must intervene to determine whether
prolonged foster placement amounts to violating federal
law, and the determinant benchmark when such violation
occurs
15

B. Losing parental rights to foster after 40 months of
temporary foster placement, is flawed, and must be deemed
17
unlawful and unconstitutional
C. This Court needs to determine whether prolonged foster
placement in a household of a different faith impinges on
the religious freedom of the children and the on the
constitutional rights of their
parents
18
D. This Court must intervene to prevent this form of Statesponsored child abuse
19

II. This Court’s intervention is warranted to prevent the
deprivation of parental rights by ambuscade
20
III. Certiorari is warranted to determine whether judicial bias
can manifest after the trial court issues its final decision,
thus depriving the unsuspecting litigant of his
22
fundamental right to a fair trial.
CONCLUSION

24

V

APPENDIX
Oral decision, neglect trial, December 18, 2017,
In Re Omar I., et al..................................................

la

la

Memorandum of Decision, termination of parental
rights, July 26, 2019,
In Re Omar I, et al....................................................... 44a
Opinion, Appellate Court: May 27, 2020,
In Re Omar I, et al.,..................................

121a

Motion for Articulation, August 13, 2019,
In Re Omar I, et al......................................

212a

Motion for Review, August 26, 2019,
In Re Omar I., et al..............................

222a

Order Denying Motion for Review, September 25, 2019,
In Re Omar I, et al

231a

Order Denying Petition for Certification to the Supreme Court,
June 23, 2020,
In Re Omar I., et al

232a

VI

TABLE OF AUTHORITIES
Cases

Pierce v. Soc’y of the Sisters of the Holy
Names ofJesus & Mary,
268 U.S. 510 (1925).................................

3

Wisconsin v. Yoder,
406 U.S. 205, 232-233 (1972)

3

Troxelv. Granville,
30 U.S. 57, 61 (2000)

3

Stanley v. Illinois,
405 U.S. 645 (1972)

4

Smith v. Organization ofFoster Families for
Equality and Reform,
431 U.S. 816 (1977),........................................

4, 18

Duchesne v. Sugarman,
566 F.2d 817, 825 (2d Cir.1977)

4

Parklane Hosiery Co. v. Shore,
439 U.S. 322, 326 n. 5 (1979)

4

Hart Steel Co. v. Railroad Supply Co.,
244 U.S. 294, 299 (1917)..................

4

Harris v. Washington,
404 U.S. 55, 56 (1971)

5

Ashe v. Swenson,
397 U.S. 436, 464 (1970)

5

Foster Children v. Bush,
329 F.3d 1255, 1261 (llth Cir. 2003)

14

Vll

Santosky v. Kramer,
455 U.S. 745 (1982)

17

Schenckv. United States,
249 U.S. 47...................

18

Prince v. Massachusetts,
321 U.S. 158, 167 (1944)

18

O'Toole v. Northrop Grumman Corp.,
No. 091468, at *8 (Apr. 30, 2010)....

21

Moore v. Dempsey,
261 U.S. 86, 91..

22

Chambers v. Florida
309 U.S. 227, 238

22

Buchalter v. New York,
319 U.S. 427............

22

Aetna Life Ins. Co. v. La Voie,
475 U.S. 813, 825 (1986)....

22, 23

Withrow v. Larkin,
421 U.S. 35, 47 (1975)

22

Statutes
28 U.S.C. §1257

3

42 U.S.C. §§ 620- 628

14

42 U.S.C. §§ 670-679

14

42 U.S. C. § 2000bb

18

28 U.S. C. § 455. (a)

22

Federal Adoption and Safe Families Act
Adoption Assistance and Child Welfare Act

1, 13, 15, 24
14

1
INTRODUCTION
This is a tragic case of three normal, healthy young
children, whom the State removed from the care of their natural
mother, and kept in ‘temporary’ foster placement on a plan of
reunification for over 48 months in a household that practices a
different faith of that of the children’s.
This Petition does not attempt to dispute factual findings
made by the lower courts.
After 29 months of temporary foster placement, the
children were adjudicated neglected. After 48 months of
temporary foster placement, parental rights were terminated for
both parents. The termination petitions were exclusively
triggered by the children’s expressed desire to remain in the
foster home permanently and to be adopted by the foster
parents. The trial court reconsidered the neglect findings from
the prior neglect proceeding and used those reconsidered
findings to terminate the Petitioner’s parental rights in the
subsequent termination proceeding. The Petitioner appealed to
Connecticut Appellate Court. In his Brief to the Appellate Court,
the Petitioner emphasized at length, the State’s violation of the
Federal Adoption and Safe Families Act, which is the sole
responsibility of the State to comply with. In response, the
Respondent declined to hold its State agency (“Department of
Children and Families”) responsible for this violation. There was
never a finding, by any standard of proof, that the children
would be unsafe in the care of the Petitioner. The petitioner
invoked the Doctrine of Collateral Estoppel, claimed relitigation
of findings from a prior proceeding, and claimed deprivation of
his right to a fair trial.
Respondent affirmed losing the Petitioner’s parental
rights to the foster parents on the ‘best interest’ ground of
“permanency and stability” with the foster parents after 48
months of temporary foster placement. Respondent declined to
give collateral estoppel effect to the prior judgment (of neglect.)
Losing the constitutionally protected parental rights of
the Petitioner to the foster parents on the ground that the
children’s ‘best interest’ is better served by being adopted by the
foster parents, not only violates the Fourteenth Amendment’s
Due Process Clause, but also gives greater weight to the foster

2

parents interest in keeping the children, whom they developed
an emotional attachment to, over the constitutional rights of the
natural parent. Reconsidering findings from a prior proceeding
violates the Doctrine of Collateral Estoppel long observed by this
Court, and violates Petitioner’s right to Due Process and his
fundamental right to a fair trial.

OPINIONS BELOW
The trial court’s oral decision adjudicating the children
neglected is reprinted at la and 43a.
The trial court court’s written Memorandum of Decision
terminating the Petitioner’s parental rights is reprinted at 44a
and 120a.
The Appellate Court’s decisions are reported at In re
Omari, No. 43251, 2020 WL 2763313 (Conn. App. Ct. May 27,
2020), and reprinted at 121a and 211a.
The Petitioner’s Motion for Articulation is reprinted at
211a and 221a. The Petitioner’s Motion for Review of trial
court’s denial of articulation is reprinted at 222a and 230a. The
Appellate Court’s denial of Petitioner’s Motion for Review is
reprinted at 231a. The Connecticut Supreme Court’s denial of
Petitioner’s Petition for Certification is reprinted at 232a.

JURISDICTION
The Appellate Court’s opinion was issued on May 27,
2020. The Connecticut Supreme Court denied certification on
June 23, 2010. This petition is timely filed within 90 days,
pursuant to Supreme Court Rule 13.1 This Court has
jurisdiction under 2 8 U.S.C. 1257(a).

3

RELEVANT CONSTITUTIONAL PROVISIONS
Right To Fundamental Fairness. The Fifth Amendment
to the United States Constitution provides:
“No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in the land
or naval forces, or in the Militia, when in actual service in time
of War or public danger; nor shall any person be subject for the
same offence to be twice put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use,
without just compensation.”
The Fourteenth Amendment states in relevant part“No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty, or
property, without due process of law! nor deny to any person
within its jurisdiction the equal protection of the laws.”
The Free Exercise Clause of the First Amendment
protects citizens' right to practice their religion as they please,
so long as the practice does not run afoul of a "public morals" or
a "compelling" governmental interest.
STATEMENT
A.

Legal Framework

This case is about fundamental fairness and preserving a
parent’s liberty “to direct the upbringing and education of his
children,” a right protected by the Fourteenth Amendment as
interpreted in decisions such as Pierce v. Soc’y of the Sisters of
the Holy Names ofJesus & Mary, 268 U.S. 510, 529 (1925). This
Court has reaffirmed this right in several other cases over the
years, including Wisconsin v. Yoder, 406 U.S. 205, 232-233
(1972), and Troxel v. Granville, 530 U.S. 57, 61 (2000). Yoder
reaffirmed a parent’s rights to direct the education of their
children, while Troxel decided that, absent a compelling reason,
the State could not interfere in a parent’s right to raise his or

4
her children.
“It is the interest of the parent in the ‘companionship, care,
custody and management of his or her children,’ Stanley v.
Illinois, [supra], and of the children in not being dislocated from
the ‘emotional attachments that derive from the intimacy of
daily association,’ with the parent, [Smith v.] Organization of
Foster Families [for Equality and Reform, 431 U.S. 816, 844, 97
S.Ct. 2094, 2109, 53 L.Ed.2d 14 (1977) ].” Duchesne v.
Sugarman, 566 F.2d 817, 825 (2d Cir.1977). This right to family
integrity includes “the most essential and basic aspect of
familial privacy—the right of the family to remain together
without the coercive interference of the awesome power of the
state.” Duchesne v. Sugarman, supra.
This Court has also specifically held that these rights are
enjoyed only by those who are the children’s biological or
adoptive parents, regardless of the relationship a third party
may have with them. Forexample, in Smith v. Organization of
Foster Families for Equality and Reform, 431 U.S. 816 (1977),
foster parents sought rights similar to biological and adoptive
parents, based on the idea that a psychological bond was created
between the foster parents and foster children. The Court re­
affirmed that biological parents retain the constitutional right
to direct the upbringing and education of their children,
regardless of the interests of others who might have played a
parenting role. Id. at 842-847.
This Court has held that “Under collateral estoppel, once
an issue is actually and necessarily determined by a court of
competent jurisdiction, that determination is conclusive in
subsequent suits based on a different cause of action involving a
party to the prior litigation. Parklane Hosiery Co. v. Shore, 439
U.S. 322, 326 n. 5 (1979); Scott, Collateral Estoppel by
Judgment, 56 Harv. L. Rev. 1, 2-3 (1942); Restatement (Second)
of Judgments § 68 (Tent. Draft No. 4, Apr. 15, 1977) (issue
preclusion). Application of both doctrines is central to the
purpose for which civil courts have been established, the
conclusive
resolution
of
disputes
within
their
jurisdictions. Southern Pacific R. Co., supra, at 49; Hart Steel
Co. v. Railroad Supply Co., 244 U.S. 294, 299 (1917).
“We said that collateral estoppel "means simply that
when an issue of ultimate fact has once been determined by a

5
valid and final judgment, that issue cannot again be litigated
between the same parties in any future lawsuit." 397 U.S., at
443. ” Harris v. Washington, 404 U.S. 55, 56 (1971).
[The doctrine] “ordinarily applies to parties on each side
of the litigation who have the same interest as or who are
identical with the parties in the initial litigation. Ashe v.
Swenson, 397 U.S. 436, 464 (1970).
B. Factual And Procedural Background
The two biological parents had three children born to
their marriage in 2008, 2009, and 2010. On May 2015, the
mother filed for divorce, and the two parents separated. Around
the same time (of separation/divorce filing), the Petitioner
discovered that the mother has been having an extramarital
affair with a convicted pedophile/sex offender. Pet. 10a, 22a.
Alarmed by this discovery, the Petitioner filed an Affidavit in
family court in July 2015, seeking an Ex Parte Order of Custody
of the children, expressing, amongst other allegations, a concern
that the mother might allow her paramour to access the
children. Subsequently, the Superior Court for Juvenile Matters
ordered the children into the temporary custody (OTC) of the
State’s Department of Children and Families (“DCF” hereafter.)
Within two hours of being notified of the court’s OTC
decision, the mother called 911 alleging that the Petitioner was
actively assaulting her. The Petitioner was arrested and
charged. After a thorough police investigation, the charges
against the Petitioner were dismissed with prejudice. The
Petitioner always maintained that the mother staged a
fabricated assault with self-inflicted injuries. DCF initially
substantiated physical neglect against the Petitioner as to the
three children, but that substantiation was later reversed by
order of the Hearing Officer pursuant to an Administrative
Hearing requested by the Petitioner.
DCF filed neglect petitions on behalf of the three children
in juvenile court alleging that a ‘domestic violence’ incident put
the children at risk of physical harm. On August 7, 2015, the
OTC was sustained by agreement as the Petitioner was still
facing criminal charges at that time with an automatic
protective order typically associated with such charges. The
Petitioner does not have a criminal history, nor any other form

6

of violence history. Pet. 9a.
After removal, the children have consistently expressed a
strong desire to return to the care of their parents.
Approximately three months after removal, ‘Safiyah’ was videorecorded in hysterical tears begging her father (the Petitioner)
to return to his care. (Ex. J41.) The children grew up in a
practicing Muslim household. The children were placed in a
practicing Christian household (per DCFs Social Studies.)
On October 2015, court-assigned psychologist (“Dr.
Humphrey” hereafter) conducted a court-ordered Psychological
Evaluation of the children and of their parents, which also
included interactional evaluations. Ex. J2. Dr. Humphrey
reported that the children wanted to go home to their parents,
that they had positive memories of their family life, and that all
three children had positive interaction with the petitioner (Ex.
J2, pp. 49, 50, 59, 79.) No psychological or mental issues were
reported as to the three children. Both parents were reported
not to be mentally ill (p.55.)
On May 26, 2017, approximately twenty-two months after
temporary foster placement, counsel for the children withdrew
because the three children had developed three different
positions in terms of their desired permanency, after they were
all united on a strong desire to return back to their natural
parents. Three different counsels were appointed accordingly.
Children counsels’ motions for mistrial were granted.1
A neglect trial was held after over 24 months of temporary
foster placement. In an oral decision dated December 18, 2017,
the Court adjudicated the three children neglected due to “the
injurious conditions around the children regardless of whom
caused the mother’s injuries.” Pet. 8a. During the neglect trial,
the Petitioner called the police detective to testify. In his
testimony the police detective identified many reasons to believe
that the alleged assault did not happen. Pet. 7a, and Ex. J-48.
In the neglect proceeding, several key issues were raised,
discussed and ruled upon, mostly referenced in the oral decision.
1 Judge Frazzini offered the children’s counsels to waive their right for
appointing a new Judge in order to expedite permanency for the
children through reunification with their parents, hut his offer was met
with rejection by the children’s counsels.

7

Pet.la-43a. For example, the alleged incident of assault (and the
potential domestic violence) was raised, extensively discussed
and referenced in the oral decision. The Court determined it was
inconclusive as to what happened on that incident. Pet. 7a. The
court did not make a finding that the Petitioner is domestically
violent. The court did not make a finding that the reported
incident was an “incident of domestic violence.” Accordingly, the
court did not enter an order for the Petitioner to participate in a
domestic violence program. Moreover, the criminal court
dismissed all charges against Petitioner with prejudice.
The circumstances surrounding the children’s removal
were raised, litigated and discussed. The court did not make a
finding that the Petitioner “misrepresented the circumstances
surrounding the children’s removal.” The issue of the
Petitioner’s parenting style was raised, extensively discussed
and referenced in the oral decision. Pet. 14a-15a. The court did
not make a finding of an atypical parenting style that might
raise concerns. Accordingly, the court did not order the
Petitioner to take parenting classes.2
The Petitioner’s affidavit regarding the mother was
raised, extensively discussed and referenced in the oral decision.
Pet. 5a, 6a, 7a, 8a. The court did not find that the Petitioner’s
affidavit contained any misrepresentations or false statements.
The mother’s allegations (investigated and unsubstantiated by
DCF in 2011) about inert-sibling sexualized behavior were
raised and discussed. The court did not credit those 8 years old
unsubstantiated allegations and did not enter any orders
regarding them.
The Petitioner’s motions in the prior proceeding were
heard by the court in the prior proceeding! the court never
indicated that any of the Petitioner’s motions contained
misrepresentations or falsehoods. The petitioner’s mental
health was raised, discussed and referenced in the oral decision.
The Court did not find that the Petitioner is mentally ill, nor did
the court-assigned psychologist. (Ex. J2, p. 55.)

2 Connecticut child protection courts utilize a standard form with
‘boxes’ that delineate the ‘Specific Steps’ ordered for each party. Both
the ‘parenting classes’ and the ‘domestic violence program’ boxes were
left unchecked by the court. Furthermore, the court-assigned
physiologist did not recommend a domestic violence program for the
Petitioner. Ex. 4.

8

The children’s absences from school were raised and
discussed. The court did not make a finding of educational
neglect, as all three children were at their normal grade levels.
The court made a finding that the children’s religious
upbringing is Islam and ordered the foster parents to support
their Islamic religious upbringing. Pet. 29a. The court expressed
great concern that the children, while in foster placement,
developed a fear of getting killed if they remain Muslims. Pet.
10a and 26a.
The prolonged foster placement was raised and discussed.
Pet. 23a. The court did not make a finding that the Petitioner
was responsible, in any way, for the prolonged foster placement.
The court did not make a finding that it would be unsafe for the
children to return to either parent’s care after 29 months of
temporary foster placement have lapsed since removal.3
Committing the children to DCF was on the basis of two
categories of grounds that gave rise to ‘Specific Steps’ issued to
DCF and to both parents. The first category that is directly
related to the children, was the court’s finding that the children
have developed misunderstandings of the Petitioner and of their
religion during their extended foster placement. Pet. 29a. DCF
was ordered to address those misunderstandings in the form of
therapy for the children. Pet. 29a. The second category was
indirectly related to the children, which was resolving parental
conflict through individual therapy and co-parenting
coordination.4 Pet. 29a.
3 “Foster care is a temporary setting and not a place for children to
grow up. To ensure that the system respects a child's developmental
needs and sense of time, the law includes provisions that shorten the
timeframe for making permanency planning decisions, and that
establish a timeframe for initiating proceedings to terminate parental
rights. The law also strongly promotes the timely adoption of children
who cannot return safely to their own homes.” Source: U.S.
DEPARTMENT
OF
HEALTH AND
HUMAN
SERVICES
Administration for Children, Youth and Families. Log No: ACYF-CBPI-98‘02. Issuance Date: January 8, 1998. Originating Office^
Children's Bureau.”
4 Judge Frazzini, who presided on the case before the mistrial, openly
criticized the heavy emphasis during the proceeding on the ‘intimate
partner’ relationship and the conflictual relationship between the two
divorced parents who have been living separately since the children’s
removal.

9
The court ordered updated psychological evaluations,
partially because the court found the mother mispresented and
was untruthful about her sexual relationship with her
paramour. Pet. 41a.
The [neglect] court (Lobo, J) made a finding that there
was a dynamic of control in the relationship between the two
parents while they were married prior to their separation and
prior to the children’s removal. Pet. 20a.
The [neglect] court {Lobo, J) found that the children were
very attached to the petitioner and struggled to separate from
him. Pet. 10a. The Court also noted that “all three kids are
bonded with, and love both parents.” Pet. 35a.
After about 25 months of temporary foster placement,
‘Omar’ started refusing to participate with some of the visits
with the Petitioner, while also enjoying the visits with the
Petitioner. Pet 39a. The court ordered such refusal be addressed
in therapy. Pet. 38a.
In his second report, Court-assigned phycologist
recommended that the children be reunified with the Petitioner
as the primary caretaker. Ex. 5, p. 83. DCF filed annual
Permanency Plans of reunification with the natural parents, but
consistently advocated for the mother to be the sole custodian of
the children, opposing the recommendation of Court-assigned
psychologist and opposing the plan of co-parenting coordinator.
The Petitioner objected to the mother being the sole custodian.
The Petitioner withdrew his objection after DCF agreed to file a
plan of reunification with ‘either’ parent. Pet. 49a.
On May 21, 2018 (approximately 34 months after the
temporary foster placement), Dr. Humphrey reported, once
again, positive interaction of the children with the Petitioner
and recommended reunification of the children with the
petitioner as the primary caretaker. Ex. J5, p. 30 and p.83. Dr.
Humphrey later testified that the children’s stability is better
secured with the Petitioner. Tr. 3/21/2019, p. 23. He also
expressed in his testimony (and report) that the children have
been influenced with negative information to reject the
Petitioner. Ex. 5, p. 67 and Tr. 3/21/2019, p. 11. Yet, in spite of
all that, the children’s interactive with the Petitioner remained
consistently positive. Dr. Humphrey reported that during their

10
extended foster placement, children developed a belief that
Islam is an undesirable religion. Ex. J5, p. 80, and developed a
belief that that the Petitioner “perpetrated physical violence.”
Ex. J5, p. 76. Dr. Humphrey testified that he “was not convinced
after conducting the interviews, that the children had directly
witnessed physical violence.” Tr. 3/21/2019, p. 17.
In the second evaluation conduced approximately 3
months after the neglect court’s decision, Dr. Humphrey
reported that the Petitioner exhibited some elements of control
(that are not coercive in nature.) Specifically, the Petitioner’s
request to communicate with the mother’s therapist (already
referenced by the neglect court’s decision at pet. 15a),
Petitioner’s attempt to communicate with the mother’s counsel,
and removing items from a vehicle that Petitioner leased for the
mother when the lease expired and Petitioner returned the
vehicle to the dealership. Ex. J5, p. 75.5
About 40 months after foster placement, the children
expressed a desire to remain in foster home permanently and
expressed to their counsels a desire to be adopted by the foster
parents Pet. 188a. The oldest child (‘Omar’) reasoned his desire
to be adopted because he does not want to remain Muslim, and
he is now adamant to become a Christian. Pet. 84a. Accordingly,
the children’s counsels filed petitions for termination of parental
rights on November 8, 2018. Initially, DCF opposed the
termination petitions and submitted in its pretrial
memorandum that both parents “have made significant progress
in addressing the issues that lead to the children’s commitment,
and appropriate during visitation with the children.” (DCF’s
pretrial Memorandum filed on 11-19-18, p.2.) DCF opposed
revocation of commitment holding that temporary foster
placement of the children needed to be extended even longer.
However, at the commencement of the trial, DCF changed its
position and supported the termination petitions.

5 The trial court characterized those observations by Dr. Humphrey in
the following manner:
“Dr. Humphrey opined after the second evaluation,
that the issues of intimate partner violence and
coercive control continued to exist in the family
dynamic and that Father continued with his
controlling behavior since the prior evaluation.” Pet.
69a. Appellate Court affirmed at Pet. 144a.

11
After about 40 months of temporary foster placement, a
subsequent termination of parental rights trial was held. In its
written decision terminating the Petitioner’s parental rights,
the trial court (.Burgdorff, J) reconsidered/relitigated many
findings from the prior neglect proceeding.
The most important and most serious reconsideration was
the trial court’s subsequent (criminal) finding that the mother’s
accounts of assault are “credible.” Pet. 66a, and that the
Petitioner is guilty of a “horrific” crime of assault. Accordingly,
the trial court labeled the Petitioner with a “criminal history.”
Pet. 63a, affirmed by the Appellate Court at Pet. 138a6. In fact,
the reported incident was referenced as a “domestic violence
incident” at least 18 times throughout the Appellate Court’s
decision. See Pet. 121a-211a.
The Petitioner argued that trying a parent whom the
court improperly presumed to be a criminal, guilty of a “domestic
violence incident”, is a violation of the Petitioner’s right to
fundamental fairness, which had deprived the Petitioner of his
right to a fair trial.
Other serious reconsiderations included, but not limited
to.' a subsequent finding that: “many of the motions and
affidavits, and specifically, the affidavit filed with the OTC on
July 29, 2015, contained clear misrepresentations, falsehoods,
and inconsistencies.” Pet. 65a. That the Petitioner
“misrepresented and lied about the circumstances of the
children’s removal.” Pet. 104a. That the mother’s 8 years old
unsubstantiated allegations are credible.7 Pet. 154a, 161a, and
supervisory measures must be taken accordingly. Pet. 161a,
because of which the petitioner’s supervision was inadequate.8
That there was a finding of ‘educational neglect’. That the
Petitioner continues to have “ongoing mental health and
The Petitioner does not have a criminal history. Id.
7 Judge Burgdorff credited all of the mother’s allegations including those
dismissed by Judge Lobo in the prior proceeding, hut did not credit mother’s
sworn testimony that the Petitioner did not attempt to control her in any way
since the children’s removal, in the mother’s answer to judge Burgdorff direct
question. Tr. 2/26/19, p. 70.
8 Judge Lavine, one of the three panelists’ judges on the Appellate Court,
explicitly opined during oral argument that the [relitigated] finding of
‘inadequate supervision’ is “speculative” because of lack of evidence and the
sole reliance on unsubstantiated allegations by the mother from 2011.

12
parenting deficiencies.” Pet. 133a. The trial Court determined
the Petitioner’s filing of a motion requesting his expert to
examine the children ‘coercive control’ (of the court) that
continued “up to the commencement of the trial” (which is
indicative of a failure to rehabilitate from being controlling.) Pet.
172a. The court ruled that the children best interest in
“continuity and stability” is with the foster parents. Pet. 92a and
109a. The statuary element used by the court to terminate the
petitioner’s parental rights was a finding that petitioner had
failed to rehabilitate (from being controlling.)
The reconsideration went as far as using the ‘intimate’
relationship between the parents, while they were married, as
grounds to terminate Petitioner’s parental rights as if the two
separated and divorced parents were still ‘intimate partners’
during the 4 years while the children were in foster placement.
After the written decision was issued, the petitioner felt
he was ambushed by the excessive reconsiderations of the prior
neglect proceeding and complained to the Appellate Court that
this form of relitigation deprived him of his fundamental right
to a fair trial (Appellant’s Brief, p. 10.) The Appellate Court
rejected the Petitioner’s argument and held that trial courts may
reassess evidence from neglect trials in subsequent termination
trials. Pet. 122a.
Based on an evaluation dated 11/19/18 (about 40 months
after foster placement) of an expert psychologist hired by the
children’s counsels, the court found that the children have
developed “significant psychological issues”, “anxiety about
their religious identity” and have (tragically) become children
with special needs. Pet. 84a.
Children’s counsels’ expert psychologist (Dr. Frazer)
testified that the children wanted to maintain a connection with
the Petitioner even if they were to be adopted by the foster
parents. Tr. 2/4/2019, p. 57.
The Petitioner filed his appeal to the Appellate Court on
August 1, 2019. On August 13, 2019, the Petitioner filed a
Motion for Articulation on the basis of his right to Due Process
and Equal Protection. Pet. 212a-221a. In that Motion, the
Petitioner moved for on articulation on the distinction between
the attendant findings from the prior neglect proceeding and the

13
findings from the subsequent termination proceeding (for the
purpose of arguing on invoking The Doctrine of Collateral
Estoppel.) The trial court denied the Petitioner’s Motion for
articulation. The Petitioner subsequently invoked the Appellate
court’s jurisdiction and filed a Motion for Review of the denial
for articulation, but the Appellate Court denied the Petitioner
relief and refused to direct the trial court to articulate. Pet. 231a.
The Appellate Court held that the State’s DCF is not to
blame for the prolonged foster placement.” Pet. 125a.
In its Statement of Opposition to the Petitioner’s Petition
for Certification to the Connecticut Supreme Court, filed on
June 15, 2020, DCF reasoned the length in temporary foster
placement as follows:
“The neglect petition, along with several other
motions filed by the respondent, were litigated over
the course of 2 years and 4 months, including a
mistrial after the children changed their positions on
placement.”
On pages 3-4 of the same above Statement, DCF reasoned
its support of the termination petitions as follows:
“Due to the lapse in time since filing and the
children’s decision to seek termination of their
parent’s parental rights and adoption.”
The Connecticut Appellate court acknowledged that it is
a very rare occurrence that children file parental rights
terminations petitions at pet. 211a, but did not articulate the
underlying causes for such rare occurrence.
REASONS FOR GRANTING THE PETITION
I.

This Court needs to interpret federal law as it pertains to the
biological parents’ constitutional rights.
There is an inherent connection between federal adoption
laws, specifically the Adoption and Safe Families Act (ASFA)
enacted in 1997, and the constitutionally protected rights of
biological parents, under the Due Process Clause of the
Fourteenth Amendment. The interpretation and clarification of

14
this connection merits this Court’s review.
Disputes involving State’s compliance with the Adoption
and Safe Families Act (ASFA) enacted in 1997, were never
raised before this Court.
Provisions of the Adoption Assistance and Child Welfare
Act of 1980, Pub.L. No. 96-272, 94 Stat. 500, 516 (June 17, 1980)
(codified as amended at 42 U.S.C. §§ 620- 628 and §§ 670-679a)
("the Adoption Act") ” 31 Foster Children v. Bush, 329 F.3d
1255, 1261 (llth Cir. 2003) clearly emphasize the priority of
“timely permanent placement of waiting children”, which is the
sole responsibility of the state agency per the plain language of
the federal statute.
The Adoption and Safe Families Act (ASFA) enacted in
1997 provides the following in relevant partsSEC.
101.
CLARIFICATION
OF
THE
REASONABLE EFFORTS REQUIREMENT, (a) IN
GENERAL.—Section 47l(a)(l5) of the Social Security
Act (42 U.S.C. 67l(a)(l5)) is amended to read as
follows^ “(15) provides that— “(A) in determining
reasonable efforts to be made with respect to a child,
as described in this paragraph, and in making such
reasonable efforts, the child’s health and safety shall
be the paramount concern; “(B) except as provided in
subparagraph (D), reasonable efforts shall be made to
preserve and reunify families— “(i) prior to the
placement of a child in foster care, to prevent or
eliminate the need for removing the child from the
child’s home; and “(ii) to make it possible for a child to
safely return to the child’s home; “(C) if continuation
of reasonable efforts of the type described in
subparagraph (B) is determined to be inconsistent
with the permanency plan for the child, reasonable
efforts shall be made to place the child in a timely
manner in accordance with the permanency plan, and
to complete whatever steps are necessary to finalize
the permanent placement of the child
“(ii) reasonable efforts shall be made to place the
child in a timely manner in accordance with the
permanency plan, and to complete whatever steps are
necessary to finalize the permanent placement of the
child

15

SEC. 202. “(12) contain assurances that the State
shall develop plans for the effective use of crossjurisdictional resources to facilitate timely adoptive
or permanent placements for waiting children.”
SEC. 305 “(A) IN GENERAL.—The term ‘timelimited family reunification services’ means the
services and activities described in subparagraph (B)
that are provided to a child that is removed from the
child’s home and placed in a foster family home or a
child care institution and to the parents or primary
caregiver of such a child, in order to facilitate the
reunification of the child safely and appropriately
within a timely fashion, but only during the 15-month
period that begins on the date that the child, pursuant
to section 475(5)(F), is considered to have entered
foster care.
Per the plain language of the Adoption Act and ASFA,
excessive and unreasonable delay of foster placement and not
placing the children “in a timely manner in accordance with the
permanency plan” violates the Federal Adoption and Safe
Families Act (ASFA) specifically sec. 101 (15) (B) and Sec. 202
(12) and the ‘adoption statute’. In this case, three annual
Permanency Plans were filed prior to the termination trial. All
three Permanency Plans called for reunification. With every
filing, the trial court made a finding that DCF had made
‘reasonable efforts’ to reunify, but never made a finding that
those reasonable efforts were timely. The court never made a
finding that it would be unsafe for the children to return to
Petitioner, although Sec. 305 (A) holds the child safety as the
primary determinant factor in reunification.9

9 This is a deficiency in Connecticut law that requires an annual
finding of ‘reasonable efforts’ to reunify, but does not address the time
and the safety elements as provided in language of the federal adoption
statutes. The Petitioner argued that the prolonged foster placement
amounts to violation of the statute even if a finding of ‘reasonable
efforts’ was made (absent the statutory timing element and absent the
statuary safety element.)

16

A. This Court must intervene to determine whether prolonged
foster placement amounts to violating federal law, and the
determinant benchmark when such violation occurs.
In his Brief to the Appellate Court (pp. 32-36) and in his
Reply Brief to children’s counsels (p.18), the Petitioner argued
that a violation of the Federal Adoption and Safe Families Act
occurred by extending foster placement for an unreasonably long
period of time. The Petitioner further argued that such violation
created an ‘untrue barrier’ between the Petitioner and his
children, thus violating the statuary mandate of reasonable
efforts. Pet. 194a. This untrue barrier inevitably infringes on the
constitutionally protected parental rights. In this case, this
infringement was manifested by the very filing of termination
petitions by the children as a direct result of the prolonged foster
placement.10 In response, Connecticut highest authority now
permits its State agency to prolong foster placement of children
on a plan of reunification indefinitely (48 months in this case.)
The cited justifications, were “the difficulties the father posed in
participating in the services the department offered him and his
failure to provide adequate supervision.”11 And therefore, “it was
disingenuous for him [the Petitioner] to blame the department
for the fact that the children were in foster care for a lengthy
period of time.” Pet. 197a. If that was indeed the case, then this
Court needs to determine whether the State was mandated by
the federal provisions to file for termination of parental rights
within 15 month of foster placement, and if so, whether the State
is mandated to prove by clear and convincing evidence that it
would be unsafe for the child to return to the care of their
natural parent. In this case, the State did not do that. Instead,
it kept the children on a Permanency Plan of reunification and
even filed a pretrial memorandum with the court on November
19, 2018 (40 months after foster placement) opposing
10 See pet. 118a: “The court must reiterate and emphasize in its best
interest findings that Omar, Safiyah, and Muneer have consistently,
repeatedly, and adamantly stated that they do not want to return to
either Mother's or Father's care.”
11 This is in stark contrast with what DCF submitted to the
Connecticut Supreme Court; that the reason for delay was the mistrial
and the several motions. With regards to supervision: Judge Lavine,
one of the three panelists’ judges on the Appellate Court, orally opined
during oral argument that the finding of inadequate supervision is
“speculative.” Id.

17

termination and attesting that the petitioner was “appropriate
during visits.” Id. Moreover, in the prior neglect proceeding, the
court on December 18, 2017 (29 months after foster placement)
did not make a finding of “difficulties” on the Petitioner’s part in
participating with services, nor did it make a finding of
inadequate supervision by the Petitioner. This takes us to the
second question presented in this Petition before this Court,
which is the constitutionality of reconsidering/relitigating
findings from the prior proceeding of neglect. If after 29 months
of foster placement, a full trial by a competent jurisdiction did
not make a finding of adverse conduct by the Petitioner that
might have delayed permanency, then a violation of federal law
must have occurred at the 15 months mark after foster
placement. This Court needs to determine whether this is the
sole responsibility of the State or not.
This Court needs to review whether this excessive delay
amounts to the State’s noncompliance with federal law and to
review the impact of this noncompliance on the constitutionally
protected rights of the natural parent, and on the children’s
welfare. Furthermore, this Court needs to intervene to establish
whether another party (other than the State) could be held
responsible for noncompliance with federal law by causing the
extended foster placement, and the required standard of proof
for such finding.
There was never a finding that the Petitioner was unable
to provide an environment where the children will be nourished
and protected. There was never a finding that the Petitioner was
an unfit parent.12
This court needs to establish the benchmark at which a
violation of the above federal provisions occurs in the case of
prolonged foster placement, and at what point such violation
infringes on the protected parental rights of natural parents,
and whether this infringement deems a termination petition
filed by the children unlawful and unconstitutional.

12 “proof of unfitness must rise to the level of clear and convincing
evidence before a parent's rights could be terminated, and observing
that "until the state proves parental unfitness, the child and his
parents share a vital interest in preventing erroneous termination of
their relationship” Santosky v. Kramer, 455 U.S. 745 (1982).

18

B. Losing parental rights to foster parents after 40 months of
extended foster placement, is flawed, and must be deemed
unlawful and unconstitutional.
On the ‘best interest’ grounds, the trial court clearly gave
much heavier weight to the “stability, continuity sustained
growth, development, well-being and permanency” of the
children with the foster parents over the constitutionally
parental rights of the natural parents. Pet. 116a, 118a, 176a,
177a. The only reason this much weight was given was because
of the prolonged foster placement. Therefore, this Court’s review
is triply warranted for the following reasonsIf this Courts holds the prolonged foster placement unlawful,
this would mean not only the trial court allowed the foster
relationship to occupy the same constitutional plane as that of
the natural family, but also transferred the constitutionally
protected rights of the natural parents to the foster parents on
unlawful grounds.
“If the foster family relationship were to occupy the same
constitutional plane as that of the natural family, the conflict
between the constitutional rights of natural and foster parents
would be totally irreconcilable. Smith v. Organization of Foster
Families, 431 U.S. 816, 862 n. 3 (1977).
This Court’s review is further warranted to prevent a
preferential competition between natural parents and foster
parents resulting from prolonged foster placement, which is
undoubtedly detrimental to a child’s psyche. Foster parents who
bond long enough with a child, inevitably develop an emotional
attachment to that child. As long as foster parents are lead to
believe that all it takes is for a child preference to file
termination petition for them to win the parental rights of that
child, they will be in a preferential competition with the natural
parents. This is exactly what happened in this case.
C. This Court needs to determine whether prolonged foster
placement in a household of a different faith impinges upon the
religious freedom of the children and the on the constitutional
rights of their parents.
42 U.S. Code § 2000bb (a) provides: “Government shall

19
not substantially burden a person’s exercise of religion even if
the burden results from a rule of general applicability, except as
provided in subsection (b).”
“This, first, because when state action impinges upon a
claimed religious freedom, it must fall unless shown to be
necessary for or conducive to the child's protection against some
clear and present danger, cf. Schenckv. United States, 249 U.S.
47>‘” Prince v. Massachusetts, 321 U.S. 158, 167 (1944).
While fostered for 40 months in a family that practices a
different religion, all three children end up rejecting their faith
and explicitly expressed a desire to embrace the religion of the
foster parents, even used that reason to request to be adopted by
the foster parents. Id. The Connecticut Appellate Court
determined that since the Petitioner’s “visitation time with the
children was increased by thirty minutes [weekly] for the
purpose of religious education”, this was sufficient to satisfy the
protection requirement of the claimed religious freedom. Pet
170a. The Petitioner’s argued that no amount of religious
education in half hour a week could offset the religious influence
in the foster home 24/7, especially after 40 months of foster
placement. The Petitioner argued that he stopped providing
religious education to the children as soon as he sensed their
novel rejection to their religious upbringing in order to avoid
propagating an internal conflict of faith in the children’s minds.
D. This Court must intervene to prevent this form of Statesponsored child abuse.
In This case, within a span of 48 months of temporary
foster placement under the watchful eye of the State of
Connecticut, three young healthy, normal children, bonded and
attached to their natural parents were turned into three torn
children, persistently depressed children, anxious children with
significant psychological issues, and children with psychological
special needs, desperately begging to convert to Christianity.
State Supreme Courts’ Case law is replete with strong
warnings of the adverse effects of prolonged foster placement
described as ‘deleterious’, ‘detrimental’, ‘devastating.’ In fact, in
his testimony, Dr. Humphrey strongly stressed the importance
of “recognizing the state of anxiety the children can be held in,
the degree to which anxiety can affect the brain and the brain

20

functioning.” Tr. 3/21/19, p. 23.
Omar’s therapist, Mr. Michael DeRosa, testified that
Omar now suffers from “persistent depressive disorder”. Tr.
1/29/19, p. 79, and anxiety spectrum. Tr. 1/29/19, p. 89. On July
27, 2019, based on the most recent psychological evaluation of
the children, conducted after 40 months of temporary foster
placement, the court found that the children have “significant
psychological issues, anxiety about their religious identity and
are now children with special needs.” Pet. 84a.
One can only imagine the mental state of three young
children, now depressed and anxious with special needs, who
have been very bonded with and love the Petitioner, then less
than 12 months later, they file Petitions to sever all connection
with the Petitioner. Yet they want to maintain a connection with
the Petitioner after adoption. Id. Rejecting visits while enjoying
them at the same time. Caught in a conflict between their
allegiance to their foster parents and their love for their natural
parents. Their brains’ functioning has been affected by lack of
permanency for over 40 months. Id.
This Court needs to hold that the mere filing of
termination petitions by children under this kind of emotional
distress, confusion and mental malfunction, as unconstitutional
and unlawful. This Court should intervene to prevent similar
tragic situations that lead to such devastating effects on children
and unlawful filings of transferring parental rights to foster
parents.
II.

This Court’s intervention is warranted to prevent erroneous
deprivation of parental rights by ambuscade.
Blurring the lines between attendant findings from
prior proceedings and subsequent findings in subsequent
proceedings, is a sure way to violate due process and ensure the
erroneous deprivation of parental rights.
According to Connecticut Appellate Court’s analysis in
this case; because “An adjudication of neglect relates to the
status of the child and not necessarily parental fault”, it is
perfectly within the trial court’s discretion in the subsequent
proceeding to make “subordinate factual findings that, while not
made during the [prior] neglect proceeding, were not in any way

21

contrary to the finding of neglect.” Pet. 183a. Thus, subjecting
the unsuspecting parent to a trial by ambuscade, only to receive
the shock of adverse relitigation after the final decision is issued.
In this case, the ‘subordinate factual findings’ in the subsequent
proceeding rose to the level of a finding of a criminal offense
(assaulting the mother.)13 Something as serious as a subsequent
finding of a criminal offense is a compelling example on how far
disregarding the doctrine of collateral estoppel can go in
stripping parents of their constitutionally protected rights.
Clarifying the application of the Doctrine of Collateral
Estoppel in neglect proceedings followed by termination
proceedings in child protection cases merits this Court’s review,
considering the common pattern of termination proceedings that
are almost always preceded by prior proceedings of neglect or
abuse. Blurring the lines between the findings in the two
consecutive proceedings not only violates the doctrine of
Collateral Estoppel, long observed by this Court, but also
infringes on the constitutionally protected parental rights of
biological parents risking the erroneous deprivation of their
parental rights.
Connecticut highest authority now permits the
reconsideration and relitigation of findings already determined
in a prior neglect proceeding through ‘reassessment’ of evidence
in a subsequent termination proceeding. Pet 122a. Additionally,
Connecticut law now dangerously transfers a matter of
constitutional magnitude already defined by federal law, into
the discretionary realm of lower state courts. The Appellate
Court held that, in addition to permitting ‘reassessing’ evidence
from a prior proceeding, the appellant also has the burden of
“demonstrating a different outcome”, which transfers a basic
constitutional right into the Appellate Court’s discretion. Thus,
makes it subject to the broad discretion of the court to determine
whether an appellant “demonstrated” a different outcome or not,
thereby, denying the appellant the right to a constitutional error
review.14
13 In this case, no new evidence was admitted regarding the assault
allegations (not even old evidence.) The Petitioner admitted the police
detective testimony from the prior proceeding as a full exhibit (ex. J48) to
highlight the findings of the criminal investigation supporting the
Petitioner’s claim of a fabricated assault.
14 In his Appellant’s brief, the Petitioner dedicated 13 pages to analyze a
review of constitutional violation error on the basis of relitigation which
deprived him of his fundamental right to a fair trial.

22

The review of this Court is doubly warranted when
‘failure to rehabilitate’ is alleged in the subsequent termination
proceeding, when a parent is expected to ‘rehabilitate’ from
condition that was not even identified in the prior proceeding.
III.

Certiorari is warranted to determine whether judicial bias can
manifest after the trial court issues its final decision, thus
depriving the unsuspecting litigant of his fundamental right to
a fair trial.
The Fifth Amendment, inheres in the right to a fair
trial. A right to a fair trial is a right admittedly protected by the
due process clause of the Fourteenth Amendment. Moore v.
Dempsey, 261 U.S. 86, 91,' Chambers v. Florida, 309 U.S. 227,
238; Buchalter v. New York, 319 U.S. 427.
In this case, the Petitioner was shocked to find that the
trial court in the subsequent termination proceeding found him
guilty of assault, labeled him with a “criminal history” (pet. 63a),
and found that he lied in his affidavits and motions in the prior
proceeding, absent any evidence, old or new. Id. The Appellate
Court rejected the Petitioner’s argument that he was deprived
of his right to a fair trial because the Petitioner did not move for
disqualification of the judge, nor asked the judge to recuse
herself. Pet. 179a. In his brief, the Petitioner argued that Judge
Burgdorff made questionable comments in a trial held four years
after the children’s removal. Any motion for a mistrial would
have delayed the proceedings by at least another year, and
would have extended the children’s temporary foster placement
even longer,' something that was unthinkable to the Petitioner
at that time.15
The Petitioner argued in his brief to the Appellate
Court, that judge Burgdorff was obligated to recuse herself once
she realized she was unable to be impartial, see 28 U.S. Code §
455. (a) “Any justice, judge, or magistrate judge of the United
States shall disqualify himself in any proceeding in which his
impartiality might reasonably be questioned.”

15 In a pretrial conference, Judge Barba Quinn advised children’s counsels
not to pursue termination petitions as they did not have legal nor factual
grounds to prevail. This gave the Petitioner a (false) sense of assurance that
granting the termination petitions was almost a nonexistent possibility.

23

“[u]nder our precedents, the Due Process Clause
may sometimes demand recusal even when a judge
(ha[s] no actual bias.’ Recusal is required when,
objectively speaking, the probability of actual bias on
the part of the judge or decisionmaker is too high to
be constitutionally tolerable.” Aetna Life Ins. Co. v.
LaVoie, 475 U.S. 813, 825 (1986); Withrow v.
Larkin, 421 U.S. 35, 47 (1975).
“At a basic level, procedural due process is
essentially based on the concept of "fundamental
fairness." In 1934, the United States Supreme Court
held that due process is violated "if a practice or rule
offends some principle of justice so rooted in the
traditions and conscience of our people as to be ranked
as fundamental". As construed by the courts, it
includes an individual's right to be adequately
notified of charges or proceedings, the opportunity to
be heard at these proceedings, and that the person or
panel making the final decision over the proceedings
be impartial in regards to the matter before them.”
O'Toole v. Northrop Grumman Corp., No. 091468, at
*8 (Apr. 30, 2010).
The Petitioner was not notified that he had the burden
of defending himself against criminal allegations in a trial that
was meant for revocation of commitment and termination of
parental rights. The Petitioner was completely oblivious that he
had the burden of proving the truthfulness of his filed motions
and affidavits from the prior proceeding.
This Court’s review is urgently needed to determine
whether a judge’s bias manifested in. the final decision, is a
violation of fundamental fairness. In”hi.s appeal, the Petitioner
argued that clear and extreme reconsideration of findings from
the prior (neglect) proceeding was indicative of judicial bias,
especially when linked to some of the judge’s questionable
comments during trial. In his Rely Brief to the children’s
counsels’ Brief, the Petitioner claimed^
“Judge Burgdorff tried a father whom she
predetermined to be a liar, domestically violent,
guilty of a horrific crime of assault, and has not

24
rehabilitated form ‘coercive control’ because he
coerced the court with his motion, which clearly
deprived the father of his fundamental right to fair
trial.” Appellant’s Reply Brief, pp.9-10.
The opinion of the Appellate Court affirming
judgment, demonstrates the harm of judicial bias, manifested
after the issuance of the decision, through its holding that the
grounds supporting termination of parental rights on the basis
of ‘failure to rehabilitate’ are “a pattern of intimate personal
violence between the parents in the presence of the children.”
Pet. 122a. As if the two divorced parents have been ‘intimate
partners’ living with the children during the 4 years of foster
placement. No evidence of parental unfitness was identified.
CONCLUSION
Innocent children are in jeopardy of devastation by
incompetent State agencies. The overall judicial fundamental
fairness is at stake.
State agencies are now permitted to operate with
impunity, harming children while violating the Federal
Adoption and Safe Families Act at will, and eroding the
constitutional rights of fit biological parents recognized by
Troxel and Pierce.
Children and families will continue to face the threat of
similar tragedies until this Court intervenes. This case presents
a compelling vehicle for that needed intervention. The petition
should be granted.

ectfully submitted,
/Ammar Idlibi/
Ammar Idlibi,
Petitioner.
33 Maggie Court
Terryville, CT 06786
860-543-5400
aidlibi@vahoo.com

